                                                               CAPITAL REGION                                            Q002
'.      01/29/08          15:22 FAX 301 903 4656


     DOE F 1325.8

     (s.93 25                                                                                Department of Energy
     United States Government


     Memorandum
                DATE:      January 28, 2008

          REPLY TO                                                                    Audit Report No.: OAS-L-08-04
           ATTN OF:        IG-34 (A07TG029)
                                                                  of the Strategic: Integrated Procurement
          SUBJECT:         Report on "Department's Implementation
                           Enterprise System - Security Planning'

                    TO:    Chief Financial Officer, CF-1

                           INTRODUCTION AND OBJECTIVE

                                                                              Department'sImplementation of the
                            On November 28, 2007, we issued a report onSystem        - Overall Project Planning
                            Strategic integratedProcurementEnterprise
                            (OAS-L-08-02). This was the second       in a series of reports to address the Department
                                                                                             Enterprise System
                            of Energy's (Department) Strategic Integrated Procurement
                                                                                ongoing efforts in the areas of
                            (STRIPES) initiative and to determine whether
                                                                                           planning; and security were
                             transition planning, interfaces, and testing; overall project
                                                                                         requirements, goals, and
                             satisfying Federal and Department system development
                             mission needs.
                                                                                             planning for STRIPES
                             In our most recent report, we observed that overall project         requirements, goals, and
                                                                        system   development
                             largely satisfied Federal and Department
                                                                                           to improve the planning and
                             mission needs. However, we noted several opportunities
                                                                                                we suggested that
                             implementation processes. To improve project management        a critical path for project
                              management consolidate project documentation, approve action to ensure that all
                                                                                 and take
                              execution, provide detail on duplicative systems
                                                                           as practicable. Management concurred
                              duplicative systems are terminated as soon
                                                                                            issues discussed in our
                              with our suggestions and agreed to take action to resolve        focuses on whether
                                                                        final in  the series,
                              second report. This report, the third and
                                                                                          and Department system
                              ongoing security planning efforts are satisfying Federal
                                                                               needs.
                              development requirements, goals, and mission

                              CONCLUSION AND OBSERVATIONS
                                                                               for the most part, security planning  for
                              Consistent with our last report, we noted that,system  development   requirements,   goals
                              STRIPES satisfied Federal and Department                      and accreditation process of
                              and mission needs. For instance, the formal certification
                                                                                        in place and if complied with,
                              the system had begun. Physical safeguards were also
                                                                                                                 of
                              should be sufficient for controlling access to the system. Plans for continuity
                                                                           developed for the system. An alternate
                              operations and disaster recovery have beenservices and restarting operations in event
                                                                                                                       of
                              processing facility exists for recovering
01/29/08   15:22 FAX 301 903 4656               CAPITAL REGION                                          Z]003




                                                             Automated controls that separate user
           an emergency, service disruption, or disaster.place in the system and should help ensure
                                                       in
           responsibilities based on job function are
                                         information that resides within. However, our review
           its integrity and that of the                      security planning process.
                                                        the
            identified several opportunities to improve
                                             Vulnerability Scanning
                                                                                             that
                                                    for performing scans for vulnerabilities
            No provision exists in STRIPES planning
                                                        Application Hosting Environment
            hosted and managed within the Department's                               Office of
            (AHE), which is an enterprisehosting environment run by the Department's
                                                      manages network security and provides
            Chief Information Officer (OCIO). The AHE                business applications.
                                                      variety of Department
            the necessary infrastructure to support a
             According to the STRIPES security plan, scans for vulrnerabilities are a common
                                                          the OCIO. An OCIO official told us that
             security control under the responsibility of
             broad-based scans of the Department's network for vulnerabilities are performed
                                                               potentially affecting the network are
             monthly or when significant new vulnerabilities       that while application system
             identified and reported. The official also indicated
                                                                are not currently part of the service
             specific scans could be provided if desired, they
                                                      be valuable for identifying application
             agreement for STRIPES. Such scans can                              or policy. For
                             determining the effectiveness of security controls
             specific risk and
                                                               enforcement of the 90 day password
             instance, a periodic scan could be used to assess
                                                     system.
              change requirement established for the
                                                 Encryption of Data

                                                                       transfer and storage of sensitive
              Officials also need to assess the risk that unencrypted
                                                                              access. For risk and
              STRIPES data could result in compromise by unauthorized sensitivity rating and will
                                                               information
              protection purposes, STRIPES has a moderate
                                                                     and privacy information.
              include unclassified controlled nuclear information
                                                                 STRIPES, data or information is
              According to an AHE representative supporting
                                                                    se:rver and database server.
              encrypted intransmission between the application
                                                                    when transmitted between the
              However, this data or information is not encrypted
                                                                           up to media or tape. It is also
               database server, file storage network, and where backed
                                                     database server in memory, the storage    network,
               not encrypted when residing on the                     therefore, could  be vulnerable  to
               and backup media or tape. The data or information,     storage media, or loss of  backup
               unauthorized access or download from the server or
                                                                               told us that an encryption
               tapes to the offsite storage location. The representative also
                                                                      ihe database server and storage
                product could be installed by the OCIO that covers
                                                              that the: OCIO was in the process of
                network. The AHE representative indicated
                starting to encrypt data or information stored on tapes.
                                                     Access Controls

                                                                                                 for
                While a policy had been developed that largely addresses the controls necessary
                                                                                      we noted  that
                managing access to the system, it needed to be updated. Specifically,         for
                                                    the method for enforcing the requirement
                 the policy did not accurately reflect

                                                     2
01/29/08   15:23 FAX 301 903 4656               CAPITAL REGION                                              ]004




                                                                                             out of
                                                  In addition, it did not address the timing
           changing passwords every 90 days.
                                                             password requirements for officials
           sessions after a period of inactivity, additional
                                                    of system owner and approvers in the semi- a
           with approving authority, and the role              with the objectives of the policy,
            annual user account review process. Consistent
                                                             to guarantee the integrity of
            reliable and error-free methodology is essential
            information contained in STRIPES.
                                                                 authentication - a critical security
            Contrary to Department requirements, two-factor
                                                                  accounts with privileged access.
            control - had not been implemented for STRIPES
                                                                    requires implementing a
            The Department's password management guidance
                                                                            accounts with special
            mandatory two-factor authentication process for access to
                                                                                         configuration,
                                                        In our testing cf access controlholder,
            privileges (e.g., system administrators).             a  privileged account         utilized
            we noted that the STRIPES system administrator,           to access the system.
             one-factor authentication (i.e., user id and password)

             POTENTIAL IMPACTS
                                                              in requesting the audit was to identify
             One of the major objectives of project officials                       statements. Our
             any STRIPES risks or issues that could impact the aud'tt of financial has  not identified
                                                              system  development
             work up to this point to evaluate the STRIPES
                                                               audits of the Department's financial
             any potential issues which would impact future
                                                                           planning could, however,
             statements. The issues discussed above related to security and the information that
                                                                operalions
             potentially impact the security risk to STRIPES
             will ultimately be contained within it.

              SUGGESTED ACTIONS
                                                                    measures, we suggest that the
              To help ensure incorporation of sufficient protective
                                                                    management team to:
              Chief Financial Officer direct the STRIPES project
                                                                                  for performing
                   1. Incorporate in the agreement with the OCIO provisions system or application
                                                                  specific to the
                      periodic scans for vulnerabilities that are
                       on which STRIPES is based;
                                                                    to reflect the actual controls and to
                   2. Update the STRIPES access control policy
                       clarify responsibilities for reviewing access;
                                                                   for accessing STRIPES
                   3. Implement a two-factor authentication method
                      accounts with special privileges; and,
                                                                    that the OCIO take actions to
                    4. Assess the risk and recommend, if necessary,             while residing in
                       encrypt STRIPES data or information when transmitted,
                                                                           location.
                       memory and when in storage onsite or at the offsite




                                                     3
01/29/08   15:23 FAX 301 903 4656               CAPITAL REGION                                           [61005




            MANAGEMENT REACTION
                                                                                              for
                                                    AHE to determine if tools are available
            Management agreed to work with the                                                    on
                                                       are specific to the system or application
            performing scans for vulnerabilities that
                                                            to review acd update the access control
            which STRIPES is based. Also, they agreed
            policy and to research the feasibility of implementing    a two-factor authentication the
                                                      vendor.  In addition, they agreed to assess
            method with the STRIPES application STRIPES data if determined to be required
            risk and work with the OCIO to encrypt
             and feasible.

                       formal recommendations     are being  made in this report, a formal response is
             Since no
                                                             of your staff during this phase of the
             not required. We appreciate the cooperation
             audit.




                                                  Rickey R. Hass
                                                  Assistant Inspector General
                                                    for Environment, Science, and Corporate Audits
                                                  Office of Inspector General

              Attachment

              cc:     Director, Office of Management, MA-1
                      Chief Information Officer, IM-1
                      Chief of Staff
                      Team Leader, Audit Liaison, CF-1.2
                      Audit Liaison, IM-10
                      Audit Liaison, MA-40




                                                      4
01/29/08   15:23 FAX 301 903 4656                CAPITAL REGION                                         @006



                                                                                        Attachment


                                       SCOPE AND METHODOLOGY


            SCOPE AND METHODOLOGY
                                                                              of the Strategic
            Fieldwork for Department of Energy's (Department) Implementation
                                                                - Security Planning was
            Integrated Procurement Enterprise System (STRIPES)
                                                          at Department Headquarters in
            performed between July 2007 and January 2008              we:
            Germantown, Maryland. To accomplish the audit objective,
                                                                                       to
                      SReviewed applicable laws, regulations, and guidance pertaining        and
                                                                                information
                       information technology; financial management systems;                also
                                                                                      We
                       system security; and system development and implementation. General;  Office
                       reviewed relevant reports issued by the Office of Inspector
                                                                                            Office;
                       of Cyber Security Evaluations; and the Government Accountability
                                                                                          and
                  * Reviewed the Government Performance and Results Act of 1993
                                                                            for STRIPES;
                    determined if performance measures had been established
                                                                                       obtained and
                  *     Held discussions with Department officials and personnel and
                        reviewed relevant documentation relating to development and
                                                                                            security;
                        implementation, particularly in the area of information and system
                         and,

                   *     Assessed the effectiveness of controls being implemented for ensuring
                                                                               resources from
                         integrity of information and safeguarding information
                         unauthorized sources.
                                                                                                auditing
              The audit was performed in accordance with generally accepted Government    and
                                                                                controls
              standards for performance audits and included tests of internal
                                                            extent necessary  to satisfy the audit
              compliance with laws and regulations to the                          and performance
                                                                         controls
              objective. Accordingly; we assessed significant internal          of 1993 regarding
              measures under the Government Performanceand Rerults Act
                                                                           measures, objectives and
              implementation of STRIPES and found that performance
                                                                         effort. Because our review
               goals did exist relating to the STRIPES implementation internal control deficiencies
               was limited, it would not necessarily have disclosed all
                                                                            rely on computer-processed
               that may have existed at the time of our audit. We did not
                                                            discussed  the contents  of this report with
               data to accomplish our audit objective. We
                                                                                 14, 2008.
                an Office of Chief Financial Officer representative on January




                                                     5
